April 27, 2021

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Ezralee J. Kelley v. United States, No. 20-7474

Dear Mr. Harris:
The Government has requested an extension of the deadline within which to file its
brief in opposition in this case, from May 5, 2021, to June 4, 2021. Petitioner does
not oppose the Government’s request for an extension, but respectfully requests that
the deadline for the Government’s brief be extended only to May 28, 2021. That
slight, 7-day reduction would enable the case to be distributed on June 2, 2021, and
considered at the Conference scheduled for June 17, 2021. (Petitioner intends to
waive the 14-day waiting period for distribution of the petition pursuant to Rule 15.5.)
The Court would then have the option of calendaring the case before the summer
recess if it wishes.
This short reduction would be equitable to the Government. The petition was filed
on March 15, 2021, the Government waived its right to respond 11 days later, and
this Court called for a response on April 5, 2021. In addition, one of the attorneys
handling this matter for Petitioner is expecting a baby on June 5, 2021. This
additional time will accordingly help ensure that the counsel assigned to this matter
have adequate time to draft and file a reply.
Sincerely,
Matthew Campbell
Federal Public Defender
U.S. Virgin Islands

cc:

Counsel of Record

